 

WAIVER

SUPREME COURT OF THE UNITED STATES

977

 

 

Supreme Court Case No.

Rebekah A. Atkins y, Sherry Brown, et al.
(Petitioner) (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
{J Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if

your name has changed since your admission):
Signature Caso Cy apt:
vate: Cetatawr, 26, 2020

Aaron T. Craft

(Type or print) Name
O@Mr OMs. OMr.§ QO Miss

Firm Office of the Attorney General
Address _Indiana Government Center South, 302 W. Washington Street, Fifth Floor

City & State Indianapolis, IN Zip 46204

Phone_317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Rebekah A. Atkins
5017 E. Tunnel Rd.
Marengo, IN 47140
